Supreme Court, U.S.
FILED

MAR 0 9 2020

WAIVER

OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES
Supreme Court Case No

19-1089

Lisa Gindi

v.

New York City Department of Education

(Petitioner)

(Respondent)

I DO NOT. INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
0 Please enter my appeaiance as Counsel of Record for all respondents.
0 There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

I am a member of the Bar of the Supreme Court of the United States.
Li I am not presently a ember of the Bar of this Couit. Should a response be requested, the response
4riember.
will be filed by
Signature

3/9/20

Date.

(Type or print) Name

Zachary S. Shapiro
Mr.

Firm

0 Ms.

0 Mrs.

r] Miss

James E. Johnson, Esq., Corporation Counsel of the City of New York

Address

100 Church Street

City & State
Phone

Gip 10007

New York, NY

(212) 356-1645

Email

zashapir@law.nyc.gov

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

CC: Lisa Gindi

RECEDED
MAR 2 4 2020
CH

SUPREME COURT OF THE UNITED STATES
x
AFFIDAVIT OF SERVICE

LISA GINDI,
Petitioner,
Against

LAW NO.: 2016-048610
DOCKET NO.:18-3057

NEW YORK CITY DEPARTMENT OF EDUCATION
Respondent.
X
STATE OF NEW YORK
: ss.:
Cortrice Jones, duly sworn deposes and says that:
The deponent is not a party to the action and is 18 years of age or older.
On March 9th, 2020 the deponent served the annexed Supreme Court Response
Waiver upon the following person or persons:
Lisa Gindi
75-25 153rd Street
Flushing, NY 11367
The number of copies served on each of said persons was 1.
The method of service on each of said persons was:
By mailing the paper to the person at the address designated by him or her for that purpose by
depositing the same in a first class, postpaid, properly addressed wrapper, in a post office or
official depository under the exclusive care and custody of the United States Postal Service
within the State of New York pursuant to CPLR 2103(b) (2).

Sworn to before me this
9th Da of Mar

MOSES S. WILUAMS
Commissioner of Deeds
City of New nt No. 2-12722
Certificate Filed in New York Coupty
Commission Expires Jon, 1. 2^ ,

